<html>
<title> - EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                         EXECUTIVE OFFICE FOR 
                        UNITED STATES ATTORNEYS

=======================================================================


                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   COMMERCIAL AND ADMINISTRATIVE LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2008

                               __________

                           Serial No. 110-188

                               __________

         Printed for the use of the Committee on the Judiciary

      Available via the World Wide Web: http://judiciary.house.gov
      



                  U.S. GOVERNMENT PRINTING OFFICE
43-151                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

           Subcommittee on Commercial and Administrative Law

                LINDA T. SANCHEZ, California, Chairwoman

JOHN CONYERS, Jr., Michigan          CHRIS CANNON, Utah
HANK JOHNSON, Georgia                JIM JORDAN, Ohio
ZOE LOFGREN, California              RIC KELLER, Florida
WILLIAM D. DELAHUNT, Massachusetts   TOM FEENEY, Florida
MELVIN L. WATT, North Carolina       TRENT FRANKS, Arizona
STEVE COHEN, Tennessee

                     Michone Johnson, Chief Counsel

                    Daniel Flores, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JUNE 25, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable Linda T. Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Commercial and Administrative Law..............................     1
The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Member, Subcommittee on Commercial and 
  Administrative Law.............................................     3

                               WITNESSES

Kenneth E. Melson, Esq., Director, Executive Office for United 
  States Attorneys, U.S. Department of Justice, Washington, DC
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Heather E. Williams, Esq., First Assistant, Federal Public 
  Defender, District of Arizona, Tucson, AZ
  Oral Testimony.................................................    45
  Prepared Statement.............................................    47
Richard L. Delonis, Esq., President, National Association of 
  Assistant United States Attorneys, Lake Ridge, VA
  Oral Testimony.................................................    87
  Prepared Statement.............................................    89
Jonathan Turley, Esq., The George Washington Law School, 
  Washington, DC
  Oral Testimony.................................................   109
  Prepared Statement.............................................   111

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Article submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California.......................   134

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Post-Hearing Questions from Kenneth E. Melson, 
  Director, Executive Office for United States Attorneys, U.S. 
  Department of Justice, Washington, DC..........................   154
Response to Post-Hearing Questions from Heather E. Williams, 
  First Assistant, Federal Public Defender, District of Arizona, 
  Tucson, AZ.....................................................   164
Post-Hearing Questions submitted to Richard L. Delonis, 
  President, National Association of Assistant United States 
  Attorneys, Lake Ridge, VA......................................   170
Response to Post-Hearing Questions from Jonathan Turley, George 
  Washington Law School, Washington, DC..........................   171


                         EXECUTIVE OFFICE FOR 
                        UNITED STATES ATTORNEYS

                              ----------                              


                        WEDNESDAY, JUNE 25, 2008

              House of Representatives,    
                     Subcommittee on Commercial    
                            and Administrative Law,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:29 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Linda 
Sanchez (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Sanchez, Johnson, Lofgren, 
Delahunt, Cohen, Jordan, and Franks.
    Staff present: Eric Tamarkin, Majority Counsel; Daniel 
Flores, Minority Counsel; and Adam Russell, Majority 
Professional Staff Member.
    Ms. Sanchez. This hearing of the Committee on the 
Judiciary, Subcommittee on Commercial and Administrative Law 
will now come to order.
    Without objection, the Chair will be authorized to declare 
a recess of a hearing at any point.
    I would now like to recognize myself for an opening 
statement.
    In the first session of the 110th Congress, we examined 
some aspects of the Executive Office for U.S. Attorneys, EOUSA, 
particularly in the context of the U.S. attorney firing 
scandal.
    Today, the Subcommittee will exercise its oversight 
responsibilities and review the performance of the Justice 
Department. Specifically, we will scrutinize EOUSA and the work 
of the 94 U.S. attorney offices throughout the country. We hope 
to learn, among other things, what resources that these offices 
may need to effectively meet their responsibilities.
    Much to my dismay and frustration, we have yet to obtain 
information from the White House to finally allow Congress and 
the public to learn the full extent of the politicization of 
the Justice Department. While I do not expect to learn those 
answers today, I do expect to find out how the controversy 
affected morale in the U.S. attorneys' offices, and what 
adjustments EOUSA has made in response to the issues raised 
during the controversy.
    Separate and apart from the U.S. attorney firing scandal, I 
have a number of concerns about the operation of EOUSA and the 
U.S. attorneys' offices that I hope members of our panel will 
address, either in their statements or during questioning.
    First, I am troubled by U.S. Attorney Thomas P. O'Brien's 
decision in March of 2008 to eliminate the Public Corruption 
and Environmental Crime Section in the Los Angeles office and 
transfer its 17 prosecutors to other units in the office. 
According to current and former prosecutors, the dissolution of 
the public corruption unit will severely limit the office's 
ability to file long-term, complex corruption cases involving 
elected officials and other high profile figures.
    Furthermore, some prosecutors have alleged that this 
decision signifies an effort by Mr. O'Brien to drive up 
statistics in the office by requiring the prosecution of high-
volume, low-quality cases.
    I am also concerned about the apparent shift in focus 
toward immigration prosecutions to the detriment of other kinds 
of prosecution. Specifically, between 2000 and 2006, 
prosecutions for immigration violations increased by 36 
percent. However, in the same time period there were 
significant declines in the number of prosecutions for 
environmental violations of 12 percent, organized crime of 38 
percent, white-collar crime of 10 percent, bank robbery of 18 
percent and bankruptcy fraud of 46 percent.
    This recent surge of immigration cases has triggered 
concerns about the imbalanced use of resources. The department 
estimates that U.S. attorneys will file over 24,000 cases 
involving immigrants over the next 2 years. If both prosecutors 
and Federal defenders are spending most of their time and 
limited resources on misdemeanor border crossing cases, they 
are not able to work on more complex prosecution.
    While I believe that immigration prosecution is certainly a 
priority, I think it is very important that Congress scrutinize 
the department's method of budgeting its limited resources to 
make certain that all areas of concern can be addressed.
    Additionally, the expanded effort to prosecute immigration 
cases has raised concerns about whether due process rights, 
such as adequate access to counsel, are being sacrificed in the 
crush of bloated court dockets.
    Next, I look forward to reviewing the department's record 
on terrorism prosecution. When the inspector general's report 
on the department's terrorism prosecution statistics was 
released last year, I was troubled by the I.G.'s finding that 
statistical data on terrorism prosecutions compiled by EOUSA 
was plagued by inaccuracies. I hope that EOUSA has since 
rectified how terrorism prosecution statistics are calculated.
    Regardless of how terrorism prosecution statistics are 
tallied, Congress should probe whether the proportion of 
terrorism prosecutions is in line with the amount of resources 
devoted to those prosecutions.
    I do agree with the Administration's view that prosecuting 
terrorists should be a top priority that warrants a significant 
appropriation of resources. And it is our duty in Congress to 
make sure those significant resources are being used 
effectively.
    In the nearly 6,500 cases treated by the Justice Department 
as terrorism investigations between September 2001 and 
September of 2006, only about one in five defendants were 
convicted. Congress would be abdicating our oversight duties if 
we simply threw money at terrorism prosecutions without 
examining just how that money is spent.
    Because many of these questions have not recently been 
explored, I believe it is imperative that we ask them now. 
Accordingly, I look forward to hearing from the witnesses on 
these and other critical issues.
    At this time, I would now like to recognize Mr. Franks, the 
acting Ranking Member, for his opening remarks.
    Mr. Franks. Well, thank you, Madam Chairman.
    And that is an emphasis on ``acting.'' There is no one that 
can replace the very able Chris Cannon. And he certainly is 
much more familiar with the workings of this Committee than I 
am, but I will do my best.
    Madam Chair, this hearing marks the first time during this 
110th Congress that our Subcommittee has held an oversight 
hearing on the Executive Office for U.S. Attorneys, despite the 
fact that the office's mission is vital to the functioning of 
the department and its U.S. attorneys' offices. A quick look at 
the office's mission statement will help anyone to appreciate 
the enormous tasks the office performs, and a look at the small 
size of its personnel should leave doubts that the office can 
actually fulfill those tasks.
    When Republicans held the Congress, we held earlier 
oversight hearings with EOUSA. Our regular oversight of the 
office helps us to understand the challenges the office faces 
and to assure that its staff has the well-calibrated resources 
and the congressional guidance that it needs to carry out its 
duties faithfully.
    So, today, I would like to inquire into some of the most 
important of those issues.
    For example, just this month the department announced the 
latest wave of nationwide arrests in its investigation of the 
mortgage crisis that has plagued our economy for much of this 
term. That investigation is known as the Operation Malicious 
Mortgage.
    This operation has involved more than 50 U.S. attorneys' 
offices, Main Justice, the FBI and at least eight sister 
agencies. EOUSA must have been at the heart of this effort, 
supporting and facilitating coordination between the 
department, U.S. attorney's office and a host of other agencies 
who joined the department in this endeavor.
    I would like to know what challenges EOUSA faced, what 
shortcomings it overcame or did not overcome, what lessons it 
learned and what that tells us about how we can help the office 
to build on this experience to meet the next crisis we face 
with even greater success.
    I also want to know if Countrywide Financial's VIP mortgage 
program, also known as the ``Friends of Angelo'' program, came 
up in the department's investigation.
    As many know, Countrywide's CEO, Angelo Mozilo, is reported 
to have given preferential loans to Senators Christopher Dodd 
and Kent Conrad. Others implicated are James Johnson, former 
member of Senator Barack Obama's vice presidential vetting 
team; former HHS Secretary Donna Shalala; and former U.N. 
Ambassador Richard Holbrooke. Indeed, there appears to be 
evidence that a number of prominent and powerful Democrats 
benefited from sweetheart mortgage deals, while average 
Americans struggle in communities across the country.
    Countrywide is reportedly under investigation for 
securities fraud, and Mr. Mozilo is being questioned about 
selling off nearly a half billion dollars worth of Countrywide 
shares between 2004 and 2007, when the subprime mortgage bubble 
burst.
    Allegations that Mr. Mozilo and Countrywide bought favors 
from legislators will cast a shadow over the American people's 
trust in our government until the Democrat majority allows the 
Congress to investigate this matter, as it should have been, 
and as Republican leaders have demanded.
    Let us all remember that when Democrats took the House in 
2006, they pledged to do two things: drain the swamp of 
corruption and lower gas prices. Republicans and the Nation are 
still waiting for Democrats to honor those promises. If 
Democrats won't drill for oil, perhaps they should at least 
drill for corruption within their own ranks.
    There are many other pressing law enforcement issues that 
we need to discuss with EOUSA, and I plan to address as many as 
I can. I expect, too, that some Members of the Committee will 
want to spend our time today revisiting issues already covered 
in last year's U.S. attorneys investigation.
    I hope that does not unnecessarily prevent us from getting 
the most out of this hearing. We explored those overtrumped 
partisan issues in depth last year, while the majority 
neglected the need to pay attention to our regular oversight 
duties.
    We need not rehash them today, while Democrats stonewall 
the investigation that Republicans have demanded into 
Countrywide VIP mortgage kickbacks. Today, we need to focus on 
the real issues that now stand front and center before our 
Nation.
    And I yield back my time, Madam Chair.
    Ms. Sanchez. The gentleman yields back the balance of his 
time.
    Without objection, other Members' opening statements will 
be included in the record.
    I am now pleased to introduce the witnesses on our panel 
for today's hearing.
    Our first witness is Ken Melson. On May 14, 2007, Mr. 
Melson became the director of the EOUSA. EOUSA provides 
administrative oversight to the 94 U.S. attorneys' offices 
across the country. In addition, EOUSA also serves as a liaison 
between the U.S. attorneys and other Federal agencies and 
Department of Justice components.
    Mr. Melson has served in the Department of Justice as a 
Federal prosecutor for nearly 24 years, joining the U.S. 
Attorney's Office for the Eastern District of Virginia in June 
1983, as an assistant U.S. attorney, and in June 1986, becoming 
the first assistant U.S. attorney.
    He has also served as the interim U.S. Attorney for the 
Eastern District of Virginia from July 1991 to October 1991, 
March 1993 to September 1993, and April 2001 to September 2001.
    Welcome to you, Mr. Melson. Thank you for coming.
    Our second witness is Heather Williams. Ms. Williams is the 
first assistant Federal public defender for Tucson, Arizona. 
Prior to her services as the first assistant, Ms. Williams was 
the immigration unit supervisor from 1999 to 2006, and has been 
with the Federal Public Defender's Office since 1994. From 1988 
to 1994, she was an assistant public defender in the Pima 
County Public Defender's Office in Tucson.
    Ms. Williams has over 70 jury trials and numerous appeals 
to her credit, covering the gamut of offenses. She has spoken 
at seminars across the United States and teaches at the 
National Criminal Defense College each summer, and legal ethics 
for the criminal practitioner at the University of Arizona Law 
School.
    Welcome, Ms. Williams.
    Our third witness is Richard Delonis, representing the 
National Association of Assistant U.S. Attorneys. Mr. Delonis 
is an assistant United States Attorney in the Detroit office of 
the United States Attorney's Office for the Eastern District of 
Michigan.
    As an assistant U.S. attorney, Mr. Delonis has represented 
the United States before Federal grand juries in criminal 
trials and before the appellate courts. He has prosecuted 
criminal cases involving major fraud schemes, narcotics 
conspiracy, aircraft hijacking, murder, interstate theft and 
white-collar crime. Mr. Delonis is currently assigned to the 
prosecution of criminal tax cases and previously was a member 
of the Organized Crime Strike Force.
    Mr. Delonis has served on the board of directors of the 
National Association of Assistant U.S. Attorneys since the 
organization's inception in 1993, and has served as the 
organization's national president since 1996.
    We want to welcome you to our panel today.
    Our final witness is Jonathan Turley. Professor Turley is a 
nationally recognized legal scholar who has written extensively 
in areas ranging from constitutional law to legal theory to 
tort law. After a stint at Tulane Law School, Professor Turley 
joined the George Washington University Law School faculty in 
1990, and in 1998 became the youngest chaired professor in the 
school's history.
    Professor Turley has served as counsel in some of the most 
notable cases in the last two decades, including his 
representation of the Area 51 workers at a secret airbase in 
Nevada, the nuclear couriers at Oak Ridge, Tennessee, the Rocky 
Flats grand jury in Colorado, Dr. Eric Foretich, the husband in 
the Elizabeth Morgan custody controversy, and four former U.S. 
attorney generals during the Clinton impeachment litigation.
    He has served as a consultant on homeland security and 
constitutional issues, and is a frequent witness before the 
House and Senate on constitutional and statutory issues, as 
well as tort reform legislation.
    I want to thank you all for your willingness to participate 
in today's hearing. Without objection, your written statements 
will be placed into the record in their entirety. And we are 
going to ask that you limit your oral testimony today to 5 
minutes.
    We have a lighting system here that you will note. When 
your time begins you will be given a green light. After 4 
minutes the light will turn yellow, warning you that you have a 
minute left in your testimony. And of course, when the red 
light comes on, that lets you know your time has expired.
    If you are mid-sentence or caught mid-thought when the red 
light comes on, we will, of course, allow you to finish that 
final thought before moving on to the next witness.
    After each witness has presented her or his testimony, 
Subcommittee Members will be permitted to ask questions subject 
to the 5-minute limit.
    So, with that, I am going to invite Mr. Melson to please 
begin his oral testimony.

   TESTIMONY OF KENNETH E. MELSON, ESQ., DIRECTOR, EXECUTIVE 
OFFICE FOR UNITED STATES ATTORNEYS, U.S. DEPARTMENT OF JUSTICE, 
                         WASHINGTON, DC

    Mr. Melson. Thank you, and good afternoon.
    Chairman Sanchez, Acting Ranking Member Franks and Members 
of the Committee, I am Kenneth E. Melson, the director of the 
Executive Office for United States Attorneys. And I am very 
pleased to be here today to represent the outstanding men and 
women of the 94 United States attorneys' offices. And on their 
behalf, I thank you for your continuing support of their 
efforts.
    I have been honored to serve as the director of EOUSA since 
May 2007, and I understand the significance of the position to 
the Administration of justice in this country.
    When I came to EOUSA after a 20-year career as a first 
assistant U.S. attorney, appointed by both Democrats and 
Republicans, I told my staff when I first met them in the Great 
Hall of Justice, that we would make no personnel decisions 
based upon political considerations, and that we would treat 
every individual, regardless of whom they are or what they 
represent, with dignity and respect, and that we would not 
discriminate on any basis other than merit.
    In that vein, I have committed EOUSA to become the center 
of excellence for the United States attorneys community. I 
believe we have accomplished that, and we will continue to 
pursue excellence based upon the experience and competence of 
career employees and prosecutors, who understand that the 
department's mission is to do justice, to follow the rule of 
law and to lead by example.
    Let me tell you a little bit about the great work of the 
men and women in the U.S. attorneys' offices.
    First, with regard to immigration, we continue to 
experience heavy workloads for the five U.S. attorneys' offices 
along the southwest border, where immigration issues pose a 
huge challenge. In 2007, these five offices alone filed almost 
12,000 felony immigration cases, or 66 percent of the totals 
from all 94 offices. Those case totals do not include the tens 
of thousands of misdemeanor immigration cases prosecuted each 
year--again, principally by those five offices along the 
southwest border.
    Given this heavy immigration workload, Congress' 
appropriation of $7 million last year for law enforcement along 
the southwest border was put to good use. In each of the 
districts, law enforcement prosecutors, the marshals, the 
courts and defense attorneys are working closely together to 
meet the challenges of a heavy caseload. EOUSA is there to 
assist in any capacity that it can.
    But our work in the immigration area has not infringed on 
important work in other prosecution priority areas of the 
department. For example, with regard to the department's top 
priority, prosecuting and preventing terrorism, the United 
States attorney's offices have continued to prosecute 
significant domestic and international terrorism and terrorism-
related crimes.
    However, we should not measure success in the 
counterterrorism area simply by counting cases or convictions. 
The department's mandate is not only to prosecute those who 
commit terrorist acts, but to disrupt and prevent terrorist 
acts. The latter activities do not necessarily result in 
charges or convictions.
    In addition, our 94 offices are closely coordinating with 
the FBI and the State and local law enforcement to increase our 
intelligence sharing and emergency preparedness. My written 
submission illustrates the other great work and successes of 
the U.S. attorneys community.
    But I want to stress that we are committed also to 
increasing the collection of debts owed to the Federal 
Government and to victims. In fiscal year 2007, the United 
States attorneys offices collected over $1.7 billion in 
criminal debts on behalf of victims of crime. And may I say 
with a note of pride, that we were awarded the Crime Victims 
Fund Award for 2007 by the Office of Victims of Crime for our 
creative implementation of the Treasury Offset Program.
    In 2007 alone, almost $6 million in fines and restitutions 
was recovered in this program alone--money that otherwise would 
not have been recovered for the victims of crime.
    One of the most disturbing things I have had to face as 
director is the number of urgent reports I receive concerning 
threats to AUSAs. Recently, two AUSAs have been assaulted in 
courthouses, and one AUSA has had to be relocated, because of a 
serious, credible threat on her life. Despite threats to them 
and their families, AUSAs continue to be dedicated to the 
mission of the department and the cause of justice.
    And EOUSA has endeavored, within the current limitations, 
to fairly compensate our prosecutors for their outstanding 
performance by exploring ways to pay for performance through 
incentives, performance awards, bonuses and revision of the 
credible service calculations, and our work is ongoing.
    Dedication, hard work and commitment by these individuals 
deserve recognition.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Mr. Melson follows:]
                Prepared Statement of Kenneth E. Melson
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Sanchez. Thank you for your testimony, Mr. Melson.
    At this time, I would invite Ms. Williams to give her 
testimony.

   TESTIMONY OF HEATHER E. WILLIAMS, ESQ., FIRST ASSISTANT, 
    FEDERAL PUBLIC DEFENDER, DISTRICT OF ARIZONA, TUCSON, AZ

    Ms. Williams. Thank you, Madam Chair.
    Ms. Sanchez. Can you please turn your microphone on?
    Ms. Williams. There we go.
    Thank you, Madam Chairwoman, acting Ranking Member Franks 
and the other Members of this distinguished Committee. Thank 
you for inviting me here.
    I am Heather Williams, and I am the first assistant for the 
Federal Public Defender's Office in the District of Arizona. 
And while I work out of the Tucson office, I help to supervise 
all the offices in the district.
    Monday through Friday, in four to five Federal courtrooms 
along the southwest border, anywhere from 30 to 100 
undocumented immigrants a day face criminal charges. These are 
misdemeanor or petty criminal charges. Most of these defendants 
speak Spanish, and there are a few who speak native dialects 
from where they are from.
    Occasionally, we will find someone who is actually a United 
States citizen, or who might actually have permission to be in 
the United States. Sometimes we find defendants who are not 
mentally competent to participate in the criminal process. But 
given the fact that these cases are resolved all in a day, 
sometimes we are afraid that we missed some of the people in 
these categories.
    The courtroom itself smells pungently, because the 
defendants are wearing the same clothes they were arrested in 
and had been walking through the desert in, for anywhere from 1 
to 2 days to 3 days before.
    We have anywhere from 3 to 30 minutes, depending on what 
courtroom you are in, for these clients to meet with a lawyer. 
And during that time, the defendants have to be advised of what 
they are being charged with. They have to be advised of their 
various constitutional rights and the penalties they face if 
they go to trial or if they plead guilty.
    We have to also get from them information about their 
family, about any mental or medical conditions they may have, 
any education they may have that may affect their ability to 
understand the process. And we have to decide whether or not 
they want to plead guilty that day or if they want to insist on 
a trial.
    Most of these defendants end up pleading guilty, and they 
end up being sentenced the very same day, as well. And that is 
why this program is called Operation Streamline--to stream them 
through the court system.
    It is Border Patrol who decides who to charge and what 
charges they will face. In the courtroom is one prosecutor, and 
in the Tucson courtroom, that is an especially assigned 
assistant U.S. attorney, because we had not enough prosecutors 
to go ahead and prosecute these petty and misdemeanor offenses. 
And so, we have somebody who has been specially deputized from 
Immigration at the Department of Homeland Security to handle 
Operation Streamline cases.
    And during the court, they decide whether or not charges 
will be dismissed. They decide what sentences to ask for, and 
they decide what kind of plea agreements to give to those 
people who are charged with a combination felony and 
misdemeanor, but are pleading to a petty offense with a 
stipulated written plea agreement.
    On Monday, before I came here, the ``Tucson Citizen,'' 
which is considered Tucson's conservative newspaper, had an op-
ed about Operation Streamline. They called the process a cattle 
call. They said, and correctly so, that the courts will pay 
about $2.5 million to criminal defense lawyers in Tucson alone 
to represent only Operation Streamline defendants.
    They point out that Operation Streamline is not a deterrent 
to these immigrants coming across the border, and that instead, 
it may be more effective--the State of Arizona's immigration 
laws and employer sanction laws, and the downturn in our own 
economy and the reduction of housing construction in the area.
    It has said that it would rather have assistant United 
States attorneys instead of prosecuting this cattle call 
prosecution of petty and of flip-flop immigration offenses, and 
have them devote themselves instead to prosecuting drug 
prosecutions, which are only one-fourth of the immigration 
felony prosecutions in Tucson, or white-collar crimes, which 
have been put on the back burner.
    I want to thank you for inviting me to speak to you today.
    [The prepared statement of Ms. Williams follows:]
               Prepared Statement of Heather E. Williams
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Sanchez. Thank you, Ms. Williams. We certainly 
appreciate your testimony.
    At this time, I would ask Mr. Delonis to begin his 
testimony.

  TESTIMONY OF RICHARD L. DELONIS, ESQ., PRESIDENT, NATIONAL 
 ASSOCIATION OF ASSISTANT UNITED STATES ATTORNEYS, LAKE RIDGE, 
                               VA

    Mr. Delonis. Madam Chairwoman, Ranking Member, Mr. Franks, 
and distinguished Members of the Subcommittee, my name is 
Richard Delonis. I am an assistant United States attorney in 
Detroit, Michigan, and I have served in that capacity for a 
little over 38 years at this point.
    However, I am not here today as a representative of the 
Department of Justice, but here in my capacity as the president 
of the National Association of Assistant United States 
Attorneys, a professional association that has been in 
existence approximately a dozen years now.
    I would like to start my remarks by perhaps looking at some 
good news. And that is that in the past year or so, since 
Attorney General Mukasey took the helm of the department, there 
has been a discernible increase in the morale of the employees 
at the department, both at Main Justice and in the field. And 
there is a feeling that the affairs of the department and the 
cause of justice is being pursued in a professional manner and 
without any notion that partisanship considerations play a 
role.
    In other words, the troops in the field have a renewed 
sense of confidence and a strong feeling that things are moving 
in the right direction.
    Additionally, I would like to take a moment to commend the 
Executive Office for United States Attorneys. Under the able 
leadership of Mr. Melson, that office has been performing well. 
We have noticed that since Mr. Melson has arrived on the scene, 
there has been an improved sense of collegiality and cordiality 
between our association and the executive office as we work 
together toward the solution of problems and challenges that 
concern both the executive office and the membership of our 
organization.
    Now, having made mention of the good news, I want to turn 
our attention collectively to something that is a matter of 
grave concern to us, and that is the issue of the physical 
security of assistant United States attorneys.
    The recent brutal attack on a female Federal prosecutor in 
a Brooklyn courtroom by a criminal defendant awaiting 
sentencing sadly illustrates the vicious harm that awaits 
assistant United States attorneys inside and outside the 
courtroom.
    In recent years, the potential for violence and retaliation 
has increased, and the number of threats made on Federal 
prosecutors has tripled between the years 2002 and 2007.
    The assault in the Federal courtroom in Brooklyn was 
captured on the security camera, and a film clip of that was 
later posted on the Internet, and we have that for the 
Subcommittee at this point. It will only take a moment, and I 
would ask that we run that film clip at this point.
    [Begin video clip.]
    Mr. Gracia. At the beginning of March, this dramatic scene 
was captured by a security camera in a New York City courtroom. 
Video of the attack was widely circulated on the Internet. And 
now, the man seen here has been sentenced to life in prison.
    Thirty-seven-year-old Victor Wright dealt massive amounts 
of cocaine as part of a murderous drug gang. This was at his 
original sentencing, when he pounced on a prosecutor, trying to 
cut her with a razor. As a precaution, Wright appeared 
Wednesday from jail via closed-circuit monitor. He declined to 
speak.
    Mike Gracia, the Associated Press.
    [End video clip.]
    Mr. Delonis. I think what that illustrates is that criminal 
defendants today are increasingly bold and willing to attack 
the prosecutor, not just on the outside, but even inside the 
confines of a courtroom where there is security present. 
Thankfully, in this particular case, the prosecutor was not 
seriously injured, but she was pretty badly shaken up by the 
experience.
    The matter of safety is very important to us. We find 
ourselves at the front line as prosecutors--in court, going 
before the jury, dealing with some of the most violent, vicious 
people who are part of our society.
    And it is our task to present the evidence to a jury and at 
the conclusion of a trial, stand there and call for the 
conviction of these individuals. And upon conviction, we stand 
before a judge and argue for the incarceration of these 
dangerous people. It is no wonder that, in many cases, they 
take it very personally and seek to get revenge in whatever 
fashion.
    The types of revenge that we sometimes see vary. And one 
that is particularly troubling to me is a recent event within 
about a month or so in my own office. A friend of mine, who had 
a person under criminal investigation on a drug offense, had an 
incident where he found out that this particular subject wanted 
to take vengeance on him, but he had a different approach. He 
was not going to come after the prosecutor. The plan was to 
murder one of his children.
    And as the prosecutor put it to me, he said, you know, 
there is nothing more difficult as a dad than to sit down at 
your kitchen table with your children and try to explain to 
them that someone wants to kill them.
    So, that is what we are facing today. Assaults have 
increased, threats have increased. And in the good fortune of 
this particular case, that plan was discovered, and the plot 
that the person had been hatching was thwarted.
    Security is a grave concern. We are thankful to the 
Congress for the Court Security Act, but that is just the first 
step. We feel there is more that needs to be done.
    I thank the Subcommittee for its time.
    [The prepared statement of Mr. Delonis follows:]
                Prepared Statement of Richard L. Delonis
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Sanchez. Thank you, Mr. Delonis.
    At this time, I would invite Professor Turley to give his 
oral testimony.

 TESTIMONY OF JONATHAN TURLEY, ESQ., THE GEORGE WASHINGTON LAW 
                     SCHOOL, WASHINGTON, DC

    Mr. Turley. Chairwoman Sanchez, acting Ranking Member 
Franks, distinguished Members of the Subcommittee, it is a 
great honor to appear before you and with this distinguished 
panel to talk about so many important issues. I am here just to 
speak about the performance of the Department of Justice in 
terrorism cases.
    And before I start, because my testimony is critical of 
that record, I want to emphasize that I know no one, no lawyer, 
no citizen, who does not want terrorists to be prosecuted and 
punished. Particularly in this area, terrorism is no 
abstraction. American Airlines Flight 77 crashed right behind 
my car as I was passing the Pentagon, killing a friend. And my 
family lives within minutes of the Capitol. All of us want 
prosecution of terrorism.
    And I also want to note that my criticism today is not a 
criticism of U.S. attorneys or prosecutors generally. I have 
worked for now approaching 30 years--it is hard to imagine--as 
a criminal defense attorney. And the vast majority of Federal 
prosecutors I have worked with have been honorable people and 
talented lawyers.
    And the criticism I have today is a very small percentage, 
quite frankly, of prosecutors and how they have handled 
terrorism cases. I have handled terrorism cases and national 
security cases on the defense side, including cases I am 
currently lead counsel in, in the Eastern District for Dr. Ali 
Al-Timimi and Dr. Sami Al-Arian.
    I want to cut to the chase and to be clear. I think the 
record is clear. I think that the Bush administration has 
assembled the worst record of prosecution of terrorism of any 
modern presidency. And I must say, I think that is rather 
objectively established.
    And what is troubling is that we have seen since 2001, a 
padding of the record of terrorism cases. As many of you may 
know, I write for ``USA Today'' as a columnist. And many of us 
who write for the newspapers have written for years now in 
criticism of the reporting done by the Department of Justice on 
terrorism cases.
    And yet, the same problems that have been identified over 
and over again continue to appear in the reporting of these 
cases. That is, they have included cases that are not terrorism 
cases, and that has very significant impacts, which I am going 
to talk about in a second.
    What is clear is that the Department of Justice has long 
had an incentive to cite a lot of terrorism cases. I mean, the 
fact is that former Attorney General John Ashcroft came to the 
Congress in the first of these reports and said that the 
Patriot Act had proven al Qaida's worst nightmare.
    And he said that, ``I have a mountain of evidence that the 
Patriot Act continues to save lives.'' And he cited in that 
report 310 cases. And when you looked at the cases, you found 
out that a lot of them were standard immigration cases--cases 
that later on even the Department of Justice admitted should 
not have been in that group.
    And yet, it has continued, where we have seen, for example, 
in Nevada, a couple that burned down their pizza parlor for 
insurance purposes was listed as a terrorist case. It also 
turns out--and this worries me for Congressman Cannon, who is a 
friend of mine--it worries me that Utah is a hotbed of 
terrorism. In fact, there are more terrorists per capita in 
Utah than any other State, apparently, because they have been 
number one and have been uncovering terrorists all over the 
State.
    And when we have looked at it, it turns out that many of 
those terrorists have proven to be people with false driver's 
licenses, general fraud cases, immigration cases. It is, 
indeed, perfectly safe to go to Utah.
    The question is, why do you do it? Why do we have the 
continual gaming of the system?
    And the answer is, there is an incentive to do it. That is, 
you have a counterterrorism program that has increased in funds 
from 2001 from $737 million to $3.6 billion in 2006. And the 
Justice Department continually references these numbers to 
support that system.
    My objection to this is primarily not just simply the fact 
that you have a distortion of the record, but you also have 
many cases that are overcharged. And you also have the creation 
of a false image. We all have to find a balance between privacy 
and security. We all recognize it is a balance.
    But in order to do that, we need to understand what the 
problem is. And we cannot do that, if there is this 
representation of a far greater number of terrorism cases than 
actually exists.
    In my testimony, I point out that the Department of 
Justice, if you strip away the non-terrorism cases, has 
actually performed fairly dismally, quite frankly. Even by 
their own figures, when you look at the terrorism cases, it is 
around 60 percent conviction rate.
    Most, by the way, prosecution offices--not most, but many 
prosecution offices--have a 90 percent or more conviction rate. 
It is a very high conviction rate.
    But actually, it is the performance in major terrorism 
cases that has proven to be rather bad. And I have cited many 
of the major prosecution cases that the Department of Justice 
has cited since 2001 as being major prosecutions. These are 
prosecutions where they spend a lot of money on. And they lost.
    And what is notable about these cases is that they occur in 
very conservative jury pools. For a defense attorney, these are 
areas where you frankly do not want to try a case, if you can.
    So, what I encourage you to look at is why they have lost 
these cases, and also, why there is this need to pad the 
record. Ultimately, I am afraid that we see in these figures a 
certain self-perpetuating act, to increase terrorism numbers, 
which began with memos from John Ashcroft in encouraging U.S. 
attorneys to produce a body count.
    And in conclusion, I want to note that there is a lot of 
criticism about that culture of a body count. We saw in Vietnam 
how corrosive a body count approach can be. And that is what we 
have today. It is a body count policy. And I think that has had 
a terrible effect upon the success of the Department of 
Justice, which, once again, has many, many committed and 
talented prosecutors, many of whom are on the other side of me 
in a courtroom, I regret to say.
    But thank you very much for allowing me to speak to you 
today.
    [The prepared statement of Mr. Turley follows:]
                 Prepared Statement of Jonathan Turley
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Sanchez. Thank you, Professor Turley.
    We are now going to begin the questioning. And I will begin 
by recognizing myself first for 5 minutes of questions.
    Professor Turley, according to a study by TRAC at Syracuse 
University, many international terrorism cases involve lesser 
crimes, like immigration violations or fraud. And the median 
sentence for those convicted was 20 to 28 days, with many of 
them receiving no jail time at all.
    How do you explain the fact that, in general, the 
punishment for these cases has been relatively minor, given 
that they are ``terrorism cases''?
    And I think you sort of alluded to it in your testimony 
about their being an incentive. And I am curious to know what 
your thoughts are in terms of the incentive.
    Mr. Turley. Well, we know that there has been padding of 
the record, starting in 2001. There has been a lot of 
documentation to the inclusion of immigration cases in these 
numbers--a lot of general fraud cases, racketeering cases that 
are not terrorism cases.
    In fact, in a recent study by NYU, it showed that, of the 
632 individuals identified by the Department of Justice as 
terrorism cases, only 202 were actually charged on terrorism 
statutes.
    And so, I think that there is a certain gaming of the 
system in that regard.
    Ms. Sanchez. But why the padding? I mean, you said that 
there is an incentive to sort of pad. What is the incentive?
    Mr. Turley. Well, you know, from----
    Ms. Sanchez. Is it the glory of saying we are convicting 
terrorists? Or, I mean----
    Mr. Turley. No, not that much bravado. I think it is, 
unfortunately, more calculated.
    Attorney General John Ashcroft asked and received 
expansions of authority with the Patriot Act. And these reports 
became a justification of that, to show that we did have a 
terrorism problem in this country. And I do not want to 
belittle--in my next statement, I do not want to be taken as 
belittling terrorism in this country, because it is not.
    But the fact is, we have not found a huge terrorism problem 
in this country. Most of the terrorist cases we have, have 
proven to be unhinged or very isolated individuals. And it is a 
good thing we prosecuted them.
    But there has been an effort to suggest that it is a much 
broader problem, and I think the most obvious reason for that 
is to justify the expansion of these laws, and the expanded 
budget.
    Now, it does not mean that, if there is a more honest 
portrayal, we are going to argue for a cut-down in budget. But 
what it does mean is that we cannot have a policy discussion, 
unless we get real figures.
    Ms. Sanchez. I appreciate your answer.
    My next question is for Ms. Williams.
    You stated that you are concerned about the misdirection of 
resources, because each day your office's lawyers spend on 
misdemeanor border crossing cases, they are not talking about a 
drug case, a sex crime, a murder, assault or any number of 
white-collar cases. And the same is obviously true of the 
prosecutors.
    What do you think should be done to ensure that prosecutors 
and Federal defenders have the resources that they need to 
handle all types of cases in their respective offices?
    Ms. Williams. I think that we are very blessed, because not 
only has my boss, Jon Sands, the Federal public defender, 
recognized the need within our office, but also the Office of 
Defender Services has been very proactive in getting us the 
money and the approval for additional positions.
    The difficulty is in finding qualified people. I know that 
that has also been a challenge in talking to some of the 
assistant U.S. attorneys, as well.
    But if you have somebody who is having to spend a lot of 
time on immigration cases, and those immigration cases are not 
assessed the same way and given the same weight as the many 
other cases. And these cases can be very complicated in terms 
of trying to work one's way through the deportation process, as 
well as its sentencing, trying to figure out if somebody is 
actually an aggregated felon or not. There is a lot of time 
spent in researching and investigating that.
    If you are spending the time then in all these immigration 
cases, then other cases which by comparison can also be much 
more complicated, those tend to get put on the back burner, and 
they get continued. And so, you have this trickle down effect 
from prosecuting the criminal immigration cases, that then 
affects the drug cases, and, as we saw in Arizona, the white-
collar crime cases.
    I cited in my written statement about how we had a meeting 
with Paul Charlton, who was then the U.S. attorney for the 
District of Arizona in 2006. One of the lawyers who attended 
the conference that Mr. Charlton had said, what about these 
white-collar cases? I have been representing a couple of 
individuals for a couple of years now, who are being 
investigated. When are they going to get charged?
    He said, I don't know, because Washington has told us we 
need to focus on immigration.
    Those people were charged just last week.
    Ms. Sanchez. Thank you. Mr. Melson, I am very interested in 
this line of questioning about the immigration cases.
    Ms. Williams in her written testimony said that under 
Operation Streamline defense lawyers are given between 3 and 30 
minutes: to meet and educate the client, herself; decide 
whether the client is competent; determine whether there is a 
defense of citizenship or duress, a lack of intent, a pretrial 
motion to suppress evidence or statements to the constitutional 
violations; learn personal information, which might mitigate a 
sentence; consider the client's option not just in the criminal 
case, but also any immigration consequences or release 
available, such as asylum; and advise a client on whether to 
plead guilty or to go to trial.
    And there have been instances in which immigration cases, 
they have taken defendants 10 at a time to plead. And I thought 
it was ironic that Ms. Williams used the term cattle call, 
because literally at a place where cattle is held, they brought 
defendants in from the morning until the night, and 10 at a 
time before a judge to plead in immigration cases.
    Do you believe that defense lawyers can adequately and 
ethically execute the duties described to his or her clients in 
3 to 30 minutes' time?
    Do you think that that is adequate due process?
    Mr. Melson. Thank you. The Department of Justice, and 
particularly the U.S. attorneys in the field, are very 
committed to making sure that due process is accorded to each 
and every single defendant that passes through that court.
    Earlier this year, I went down to southwest border--in 
fact, I have been down there on several occasions now--to look 
for myself and get a first-hand view of what was going on down 
there. And while doing it, we met collectively with the judges, 
the Border Patrol, public defender's office, the prosecutor's 
office, the court clerks, and others. I remember the day when 
we sat around the courtroom and met with all the magistrate 
judges, I believe.
    And there is concern about the number of cases that are 
going through the courtroom. It sounds like perhaps the public 
defenders need more resources, if they feel that they cannot 
handle the number of cases that are being prosecuted.
    But there is another avenue, and that is, they are free, if 
they believe that due process is not being accorded to their 
clients, to make the appropriate motions before the magistrate 
judge or the district judge, suggesting those deficiencies.
    I do not believe, all across the southwest border in the 
several areas in which Operation Streamline is underway, that 
there have been any rulings that the defendants are being 
denied their due process rights.
    Ms. Sanchez. I am just troubled by some of the accounts 
which I have read. And I will probably talk with you further 
about that.
    My time has expired.
    At this time, I would recognize Mr. Franks for 5 minutes of 
questions.
    Mr. Franks. Well, thank you, Madam Chair, and thank all of 
you for being here.
    Just for the record, I would like to suggest that, during 
the hearings that we have had here in the last year-and-a-half 
related to the attorneys, the U.S. attorneys, I have seen no 
evidence whatsoever that any U.S. attorney based their 
prosecution or non-prosecution of a criminal act on fear of 
being fired, or that anyone was fired for either of those two 
things. I have seen no evidence to that effect.
    And Mr. Melson, just for the record, do you know of anyone 
in the department, any U.S. attorney, that was fired or unduly 
pressured by the Administration to prosecute in some fraudulent 
way, or not to prosecute someone who deserved it for a criminal 
act?
    Mr. Melson. I have no personal knowledge of that 
whatsoever. And as you know, I was not the director at the time 
that these events occurred. But I have no personal knowledge 
concerning that whatsoever.
    Mr. Franks. I understand. Thank you, sir.
    Related to terrorism, you know, if one listens to the 
terrorist leaders, al Qaida leaders themselves, they talk often 
of trying to gain a base in a Muslim land with a Muslim 
authority in which to launch terrorism across the world.
    In the last 7 years, or approximately that amount of time, 
the United States has not had an act of terrorism, which is 
distinctly in contrast to the previous 7 years prior to that. 
And it occurs to me that perhaps some of the terrorists have 
been a little bit busy lately, and that that might account for 
some of the drop-off.
    And I just think that, with all of the challenges that the 
department has had, that sometimes we have not looked at what 
you have done right and what we can do to further assist you in 
that regard. And I just want to make that clear.
    Now, I will ask a question, Mr. Melson, related to perhaps 
some of the more partisan areas.
    Did Countrywide Financials VIP or friends of Angelo 
sweetheart loan program come up in the department's Operation 
Malicious Mortgage investigation? Did that come up in your 
investigation at all?
    Mr. Melson. Unfortunately, I do not know the answer to 
that. We certainly can get back to you on that.
    Mr. Franks. Would you do that? And would you be able to 
tell me today that the department is going to make sure that 
that investigation occurs, or, if there is clear evidence 
there, that you will pursue that?
    Mr. Melson. That will be determined by the U.S. attorney in 
the venue in which the case occurred. I have great confidence 
in our U.S. attorneys, and that if there is a crime that has 
been brought to their attention, which meets the principles of 
Federal prosecution, that they will pursue it vigorously.
    Mr. Franks. And Operation Malicious Mortgage involved more 
than 50 U.S. attorneys' offices, Main Justice, the FBI and at 
least eight sister agencies. What challenges did EOUSA and the 
U.S. attorneys' offices face in the coordination and execution 
of this effort? What kind of challenges did you face?
    Mr. Melson. Well, there are lots of challenges that we face 
in a large operation like that. EOUSA has a legal programs 
office that has experts who are detailed to our office to work 
on various aspects of the criminal law, one of them being 
fraud. And we work with and try and coordinate and facilitate 
the various cases throughout the country.
    Lots of them may involve more than one jurisdiction. And we 
have to do a lot of deconfliction. We have to look at making 
sure that our witnesses are not impeded, or that people are not 
charged duplicatively in different jurisdictions.
    One of the reasons that we have had such success here, and 
why it is such a success, is because of the flexibility of the 
U.S. attorneys in being able to direct their resources to 
national issues and problems. And they have done that in the 
mortgage fraud area, and which might be part of an explanation 
as to why, if, in fact, some of the other white-collar crime 
prosecutions have gone down, it may be because of a change in 
emphasis on those prosecutions.
    And certainly, we hope that the President's budget is 
passed, so that we can supplement our resources in white-collar 
crime, so that we can continue to do the traditional crime as 
well as the mortgage fraud.
    Mr. Franks. Well, Mr. Melson, just the last question. 
Professor Turley, some of his comments I found were legitimate 
concerns. But at the same time, I wanted to ask you, related to 
terrorism convictions, I know that the percentages have been 
down.
    But even related to the 1993 bombing of the World Trade 
Center issue that was before your time, are there special 
circumstances, special difficulties that make perhaps terrorism 
cases less likely to be convictions?
    Mr. Melson. Well, there are lots of issues that are 
involved in a terrorism case in which terrorism charges are 
levied against the individual. A lot of that is with respect to 
classified information. Some of that cannot be released, cannot 
be used in court, because it will indicate or show resources 
and methods that we use in the field. And we do not want to do 
that.
    As a result, sometimes the full array of evidence cannot be 
presented in a case.
    Mr. Franks. Well, thank you, Mr. Chairman. My time has 
expired.
    Mr. Johnson. [Presiding.] I believe I am, having been 
called upon to Chair in the absence of the Chair, I believe it 
would be my opportunity now to ask questions, and I will give 
myself the 5 minutes that everyone else gets, though I am 
tempted to waive that rule for purposes of my own questioning.
    But Mr. Melson, you really did not give a good, square 
answer to the Chairwoman's question. And you really do not mean 
to intimate that it is possible within the space of 3 to 30 
minutes: to meet and educate the client and yourself about the 
client's case; to decide whether or not the client is 
competent; to determine whether there is a defense of 
citizenship or duress, or determine whether or not a pretrial 
motion to suppress due to constitutional violations is in 
order; to consider any personal information that could mitigate 
the sentence of the accused; to consider any immigration 
consequences that may ensue from a guilty plea or a conviction; 
to determine whether or not the individual, say, may have been 
fleeing from right-wing paramilitary oppression in a country, 
or perhaps from Hugo Chavez, the monster of South America, that 
everyone thinks is down there?
    Can a defense lawyer possibly within the space of 3 to 30 
minutes--is that enough time for a defense lawyer to be able to 
make those basic determinations? And yes or no I think will 
suffice.
    Mr. Melson. Well, unfortunately, it cannot be answered in a 
yes or no, because what you are doing, Mr. Johnson, is mixing 
different types of cases. What I think she is talking about----
    Mr. Johnson. Okay, well, then, hold on. Hold on. Since you 
do not want to----
    Mr. Melson [continuing]. Is Mexicans that are coming 
across.
    Mr. Johnson. Since you do not want to give me a yes or no, 
let me ask the two other witnesses here.
    Mr. Delonis, do you think it is possible? Yes or no?
    Mr. Delonis. Is it possible? Yes or no.
    I think, as a plain hypothetical, I could say that there 
might be a case somewhere, sometime where the answer would be 
yes.
    Mr. Johnson. But that would be--you would have to be 
stretching to find such a case, I take it.
    Mr. Delonis. I have never been in that situation. That is 
why I am addressing it as a hypothetical.
    It is certainly not the desirable situation.
    Mr. Johnson. Okay. Good enough.
    Professor Turley, what is your opinion?
    Mr. Turley. Well, I cannot imagine how you can possibly 
consult with a client, even in a special program that has a 
large number of similarly situated defendants. Ms. Williams has 
pointed out, there is a variation in this group. And as an 
attorney, you have an ethical obligation to identify the unique 
aspects of your client's case.
    Mr. Johnson. Is it possible to do that within 3 minutes to 
30?
    Mr. Turley. I doubt it, particularly when you are dealing 
with somebody who is unfamiliar with the legal system, 
unfamiliar with you.
    Mr. Johnson. And perhaps through an interpreter, as well.
    Mr. Turley. That is right.
    Mr. Johnson. Okay, well let me ask Ms. Williams. And excuse 
me for interrupting, because I only do have 5 minutes.
    Ms. Williams, what is your take on that?
    Ms. Williams. I know that our lawyers--I know that our 
lawyers are quite concerned that their bar licenses are on the 
line for being consistently ineffective assistance of counsel.
    We are fortunate in Tucson in that the court has backed us 
up in limiting our representation each day to six people. That 
is not happening in Yuma, that is not happening in Del Rio, and 
that is not happening in Laredo. And in fact, in Del Rio one 
lawyer may be representing as many as 80 to 100 people a day. 
And so, you get much more the 3-minute situations than the 30-
minute situation that we may have in Tucson.
    We are concerned, because our office also takes duty calls.
    Mr. Johnson. Okay. Let me stop you right there. I want to 
ask Mr. Melson, and this will be my last question.
    If there were such a situation where a--well, first I will 
say that, in the last 25 years prior to 2006, only 25--excuse 
me, only 10--U.S. attorneys were forced to resign, in the last 
25 years prior to December of 2006. All were fired for cause 
and under a cloud of scandal.
    But then, on 1 day, December 7 of 2006, seven were forced 
to resign, not for cause, but just at the will of the executive 
who appointed them--and another in June of 2006 and another in 
January of 2006, so, for a total of nine. And there have been 
questions about whether or not they were forced to resign, 
because they were not ``loyal Bushies.''
    And since that time, there has been a--or during that time, 
I assume that morale was lower among the assistant U.S. 
attorneys, many of whom may have been hired for political 
reasons, or with political considerations involved in their 
hiring, of career U.S. attorneys.
    Are you familiar with a drop in morale during that time 
period among U.S. attorneys?
    And I will ask the same question of Mr. Delonis.
    Mr. Melson. Well, it is hard to say that the morale dropped 
uniformly. I am sure that there were morale issues within the 
districts in which the U.S. attorneys were fired, because of 
the associations between the U.S. attorney and the AUSAs.
    I do not believe that it was overwhelming in all districts. 
I was in a district at that point, and I do not think that the 
firing of those U.S. attorneys necessarily affected the morale 
of people who were not associated with those districts.
    Mr. Johnson. All right.
    Mr. Melson. I can tell you, however, that the morale has 
increased tremendously since--over the last year or so.
    Mr. Johnson. All right. Thank you, sir.
    And your take, Mr. Delonis?
    Mr. Delonis. Mr. Melson I think is quite right when he 
points to the fact that it is going to be mostly impacting the 
districts where the U.S. attorney was being asked to resign. 
And other districts that are more remotely connected to the 
situation would not experience the same type of impact on 
morale.
    But speaking for myself, for instance, I love my job. I 
have been doing it for over three decades. And I love the 
Department of Justice and serving the cause of justice.
    And any time that our office--and I am speaking generally 
now--gets this kind of publicity, this kind of focus on it, 
these kinds of issues being raised, it is troubling. It is 
troubling. It is disconcerting, because it is a negative kind 
of light being shown on an institution that we love, and that 
we work for and we have dedicated our careers to.
    Mr. Johnson. All right. Thank you, sir.
    At this point, I will turn it over now for questions----
    Mr. Jordan. Thank you.
    Mr. Johnson [continuing]. To the gentleman from North 
Carolina----
    Mr. Jordan. Ohio.
    Mr. Johnson [continuing]. Mr. Jordan. Ohio, I am sorry.
    Mr. Jordan. I have been called a lot worse.
    Mr. Johnson. I am sorry.
    Mr. Jordan. Appreciate the Chair.
    I want to start where Congressman Franks left off. He had 
talked about Operation Malicious Mortgage. I want to ask you 
about what some would call Operation Generous Mortgage.
    Two U.S. senators, two former Cabinet members, a former 
ambassador to the United Nations received loans from 
Countrywide in a little-known program that waived points, 
lender fees and company borrowing rules.
    You are all accomplished individuals. As professionals and 
using your professional judgment, do you think, based on what 
you have heard--which is, frankly, probably no more than what 
we have heard--do you think this at least warrants some kind of 
oversight, some kind of investigation by the United States 
Congress?
    And we will just go down the line, and you can give your 
thoughts.
    Mr. Melson. Well, unfortunately, I do not know enough about 
the underlying facts to say one way or the other. All I can do 
is trust that our offices do not prosecute people for 
political-based reasons, that if there is crime that has been 
brought to the attention of the FBI or the U.S. attorney, that 
they will take the appropriate steps under the circumstances, 
depending on the nature and the quality and the reliability of 
the evidence.
    Mr. Jordan. Do you think it at least, as I said, warrants 
some kind of further examination?
    Mr. Melson. I am sure, if that information that you have 
disclosed has been brought to a U.S. attorney, they will 
examine it carefully.
    Mr. Jordan. Ms. Williams?
    Ms. Williams. I honestly do not know.
    Mr. Jordan. Mr. Delonis?
    Mr. Delonis. I think it would be presumptuous of me from 
the executive branch to tell the legislative branch what it 
should do in terms of its oversight responsibilities.
    Mr. Jordan. We will go to the guy who is not an executive 
branch man.
    Mr. Turley. Well, I think that anyone who has a better 
mortgage than I have should be investigated----
    Mr. Jordan. There you go.
    [Laughter.]
    Mr. Turley [continuing]. As a general rule. But I honestly 
do not know much about this allegation. And I do not think I 
could say it certainly deserves to be investigated. But, you 
know, there is a process.
    I have been a critic of how the department--how the 
Congress handles ethics investigations in the past, which I 
think is not a particularly good record. But I cannot really 
comment on this, because I am not too sure of the facts.
    Mr. Jordan. Ms. Williams, to go back to your testimony, you 
talked about public defenders, 80 to 100 cases a day. And, you 
know, obviously, that seems like a lot. But what is the answer?
    I mean, certainly you are not suggesting, as the Chair did, 
I think, in her opening comments, that somehow we are doing--we 
have got too much focus on prosecuting illegal immigration. 
That wouldn't make sense to me not to prosecute crime that is 
taking place.
    So, is the answer you need more people, you need more 
money? Is it budgetary concerns? Or what is the answer to deal 
with the dilemma you have cited?
    Ms. Williams. The answer to the dilemma is to come up with 
a comprehensive immigration policy that, as well as a foreign 
policy, that is going to inspire the people to stay in their 
country of origin and not get into such a desperate situation 
that they feel they need to leave their country, their family, 
the language that they speak and come to someplace where they 
don't know anybody, where they do not speak the language and 
they don't have promise of a job, but they have a hope that 
something is going to be better.
    We are at the tail end of it. The best thing to do is to 
nip it at the bud and find the source.
    Now, at the other side of your question is, should we not 
be prosecuting people who are violating the law? It is the 
ethical obligation of the prosecution to do justice. And when a 
prosecutor has a choice between, say, charging, investigating 
and pursuing a drug smuggler with 500 pounds of marijuana or 
more, or somebody who has come across the border for the first 
time who is just trying to find work, and you have to figure 
out how to best employ your resources, I would suggest that 
prosecuting the first-timer across the border is not the way to 
use those resources.
    Mr. Jordan. I mean, I understand we certainly want to go 
after the drug smuggler and the drug dealer and the terrible 
things associated with all that. But I think the American 
people would say you prosecute crime.
    I understand there are limited resources, but particularly 
on this issue, I think they understand how serious it is.
    Mr. Melson, comment, if you would, briefly, on Mr. Turley's 
testimony. He talked about the padding of the numbers. I think 
in your testimony you mentioned, you know, certainly, you do 
not just look at the number of convictions, the number of 
prosecutions when you are looking at your anti-terrorism 
efforts.
    But talk to us more about Mr. Turley's testimony.
    Mr. Melson. Well, I am a little disappointed that there are 
so many people out there that make light of the tremendous 
efforts of the U.S. attorneys in the anti-terrorism area. Not 
only should you not look just at the number of prosecutions 
that are based upon terrorist statutes, but you have to look at 
the numbers that Mr. Turley and TRAC and others use to begin 
with.
    The data that TRAC puts out is unreliable. We cannot 
associate their numbers with anything compared to our numbers. 
And we have repeatedly told the press and others that those 
numbers are not representative and not accurate.
    The other thing we can tell you is that our prosecution 
efforts in the area of terrorism is much more dynamic than 
simply prosecuting a terrorist after the act. I do not think 
anybody would want us to wait to a terrorist commits the last 
proximate act prior to the terrorist executing or exploding 
something, because the danger there is too great.
    So, we take a much more comprehensive, multi-prong approach 
to anti-terrorism, which means that we try to disrupt and 
prevent.
    It is true that not every terrorist can be convicted of a 
terrorist charge. But not every organized crime criminal can be 
convicted of racketeering. Sometimes it is tax, like we saw 
with Al Capone.
    So, a lot of our efforts go into trying to prevent 
terrorism and disrupt the cells by trying to make our 
infrastructure more secure, so that people cannot get through 
the airports, people cannot get into our nuclear facilities, 
they cannot get into the Capitol, they cannot get into this 
room.
    And we also look at other forms, like material support, 
people who are sending money overseas to fund terrorist 
organizations that may be plotting against the United States. 
We look for things in the programs like our immigration 
programs, that are ripe with fraud. If anybody can get into the 
United States by committing fraud in one of these programs, how 
secure can we be?
    It is a holistic approach that allows us to prevent the 
terrorism and disrupt these things. And we may never know if we 
really do disrupt something or not, because----
    Mr. Jordan. Well, what we do know is, since September 
11th----
    Mr. Melson. Absolutely.
    Mr. Jordan [continuing]. Things have been pretty good in 
this country, which----
    Mr. Melson. Because there has been nothing since September 
11th. So, something is working.
    Mr. Jordan. Thank you.
    Mr. Johnson. The time has expired.
    We will next have questions from the gentlewoman from 
California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I was recalling the testimony that Chief Aguilar of the 
Border Patrol gave to the Immigration Subcommittee about a year 
ago. And he said, you know, we have got to get the nannies and 
the busboys off to one side so we can focus in on the drug 
dealers and the organized crime.
    And I think we have actually gone the other direction here 
as a matter of--I am not criticizing the individual U.S. 
attorneys. But the policy of prosecuting border crossings, if 
the statistics are right, you know, we have had a substantial 
increase--I guess a 36 percent increase--on the immigration 
prosecutions, and a 38 percent decline at the same time in 
prosecution for organized crime.
    So, it seems to me that, you know, we all know that we have 
a world where resources are not limitless, and we have made a 
tradeoff to prosecute the busboy, meanwhile letting the 
organized crime figure off the hook. And I do not think that is 
a tradeoff that most people in America would think is a wise 
tradeoff.
    I want to talk about what we are doing about violence at 
the border. I recently was down in Mexico, meeting with the 
interparliamentary session with the members of the Mexican 
congress and a bipartisan group from the House of 
Representatives and Senate.
    And if you look at what is happening in Mexico, we have had 
over 4,000 Mexican police officers and army members 
assassinated in the last year by the drug cartels. And they are 
making a very serious effort. They are reforming their justice 
system. They are taking power away from corrupt officials. They 
see this as either they are going to have civil society or they 
will not.
    And their concern about what we need to do is that all the 
guns are coming from us. The drugs are coming up here and the 
guns are going down there.
    So, I was looking at your testimony, Mr. Melson, on the 
drugs. And I saw on page 11, you notice that there were two 
defendants in southern California who pled guilty to 
transportation of firearms to Mexico. All the other cases you 
cite are really individual cases.
    At the same time, we have had an increase of almost 12,000 
felony and misdemeanor prosecutions in the southwest border 
region alone, tens of thousands of misdemeanor prosecutions.
    Did you cite those two on page 11, because that is it? Or 
are there more statistics on that?
    Mr. Melson. Well, there are more statistics, and we can get 
you those if you would like them.
    But let me point out that we are taking, we are doing two 
things. Number one, we have a zero tolerance with respect to 
violence against our law enforcement officials along the 
border----
    Ms. Lofgren. That is not the question I am raising here.
    Mr. Melson. Okay. And two, we are looking very carefully at 
guns and money going south--money that funds the cartels and 
guns that increases the violence.
    Ms. Lofgren. Well, I do not have much time. I would like 
the statistics, because they are not in your testimony. And I 
think, if we are going to get--we are partners with Mexico on 
this. I mean, there are now machine gun battles in Mexican 
border towns, and the concern is that could easily--we have got 
to be partners in stopping this. And I do not see any 
statistics about what we have done to disrupt the gun trade 
down to Mexico.
    Mr. Melson. That is part of our southwest border 
immigration strategy, a very important part.
    Ms. Lofgren. Well, you are not going to get there 
prosecuting the busboys.
    Mr. Melson. Well, prosecuting the busboys does not prevent 
us from doing the other things. The AUSA----
    Ms. Lofgren. Well, I think if--let me interrupt, because my 
time is very limited--and I think it is pretty obvious from the 
decrease in prosecutions statistically that a judgment has been 
made, a policy decision has been made.
    Let me get to Mr. Turley on--and I would ask unanimous 
consent, Mr. Chairman, that the article from the New York Times 
about the arrest of nearly 400 primarily Guatemalans in Iowa be 
submitted for the record.
    Mr. Johnson. Without objection, so ordered.
    The material referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Lofgren. These individuals pled guilty, almost 300 of 
them. They pled guilty in teams of 10 over 4 days.
    And here is the comment as reported in the Times by the 
U.S. attorney. If the immigrants did not plead guilty, Mr. 
Dummermuth said he would try them on felony identity theft 
charges that carry a mandatory 2-year minimum jail sentence. 
And they got 5 months for using somebody else's Social Security 
and paying into somebody else's Social Security account that 
they will get when they are retired.
    Does this seem like a departure to you as an expert in the 
criminal justice system from prior policies? And does it make 
any sense to you?
    Mr. Turley. Well, I think it is a departure. I think that 
from--starting in 2001, there was a great deal of criticism 
about the padding of the record on terrorism. There is no 
question that, under the LIONS Manual, the definition of 
terrorism, the Bush administration has included a lot of cases 
that were not previously included, and it should not include.
    For example, the Joint Terrorism Task Force, one of their 
operations was Operation Tarmac, which arrested a whole bunch 
of people at different airports. And what they found was what 
you will find if you raid many large businesses. You found a 
lot of people with false driver's licenses, false employment 
applications. It was a very standard sweep.
    They counted those as terrorism suspects. They are 
obviously not. It is not that it wasn't an important thing to 
do, but they were not terrorists, from what we can see.
    Mr. Johnson. All right, the gentlewoman's time has expired. 
We are going to try to get to both remaining----
    Mr. Delahunt. I thank the----
    Mr. Johnson [continuing]. Witnesses before we recess. And--
--
    Mr. Delahunt. I thank the Chair----
    Mr. Johnson [continuing]. We will return after the budget, 
after the votes.
    The distinguished gentleman from----
    Mr. Delahunt. I thank the Chair for describing me as 
distinguished.
    Let me direct this to Professor Turley, as well as the rest 
of the panel.
    I find one of the shining lights in the Department of 
Justice the performance of the inspector general, Mr. Fine. 
Would you agree with that, Professor Turley?
    Mr. Turley. Absolutely. The----
    Mr. Delahunt. Mr. Delonis?
    Mr. Delonis. I would say so.
    Mr. Delahunt. And Mr. Melson?
    Mr. Melson. He is a fine gentleman, does a good job. But--
--
    Mr. Delahunt. Thank you.
    Mr. Melson [continuing]. We disagreed with----
    Mr. Delahunt. Now, no, you--this is not a filibuster.
    Mr. Melson. Okay.
    Mr. Delahunt. You answered the question, so don't try to 
filibuster.
    Mr. Melson. I was trying to answer----
    Mr. Delahunt. No, well, you answered it.
    Now, the gentleman from Ohio, my good friend, Mr. Jordan, 
indicated that, or posed a question to the four of you, would 
you consider an investigation or an inquiry, either by this 
Committee or by the Department of Justice, into what he 
described as the generous mortgage issue?
    If the inspector general, Mr. Fine, conducted an exhaustive 
review of the hiring practices of the Department of Justice as 
it related to a particular program, to attract the best and the 
brightest, and concluded that the deputy attorney general at 
the time, not only violated departmental policy, but also 
violated Federal law, would you give, Professor Turley, 
considerable weight to that finding?
    Mr. Turley. I would. I read that investigation.
    And quite frankly, I should not be shocked much anymore, 
but I was shocked, particularly with reference to the Honors 
Program. As I think Mr. Melson and everyone else at this table 
would say, the Honors Program is a cherished part of the 
Department of Justice. And many conservatives and liberals in 
the bar have come from it, and they have always protected it 
from partisan manipulation.
    And I think it is pretty clear that that occurred here, and 
it shows the degree to which the Department of Justice has been 
politicized and the damage done. And the vast majority of 
people that I know in the Justice Department really regret that 
trend.
    But this, to me, was quite shocking, because it involved 
the Honors Program, which has so many proud and very famous 
graduates in this city.
    Mr. Delahunt. Well, I concur with your sentiments. But here 
we have what I would consider an allegation by the Office of 
Inspector General, headed by an individual with impeccable 
integrity, that concludes that there was a violation of Federal 
law.
    I would hope that the Department of Justice would consider 
appointing a special prosecutor to proceed, to determine 
whether there was grounds to move forward with a criminal 
investigation, the possibility of securing a criminal 
indictment. I am not familiar with what the relevant statutes 
would be, but not to give considerable weight to this 
particular issue, it is not simply a story, you know, in The 
Examiner or the Washington Times or the Washington Post. This 
is a serious allegation.
    You, Mr. Delonis, indicate that there was low morale. Well, 
I can understand why there is low morale. As Professor Turley 
indicated, I have great respect for the career individuals who 
I think represent this country very well, who do an admirable 
job. I support--I think I would suggest a wide array of 
benefits that should be conferred upon them.
    But when we have this politicization that is ongoing, where 
we have an individual--and I am sure she is a nice person--by 
the name of Esther McDonald, who graduated in May of 2003, who 
on June 13 was recommended to Monica Goodling, who appeared 
before this Committee, and then is responsible for monitoring 
the selection of individuals to a prize program, I find that 
just absolutely mind-boggling. It is incredulous.
    It tells me that this particular department was rife with 
politics, and that it had to filter down. It devastated the 
morale in the Department of Justice, and I am glad to hear that 
it has improved. But this really left a stain on the Department 
of Justice that I think lingers today. And something has to 
occur to restore the confidence of the American people in the 
integrity of the Justice Department. That is what this is 
about.
    A woman who, again--and I say this respectfully--I am sure 
never tried a case to a jury, who never even was a second seat 
in a trial. And she is reporting to the chief of staff to the 
deputy attorney general about recommendations, and references 
and allusions to buzzwords like ``social justice.''
    My, how dangerous. Someone who embraces the concept of 
social justice in America. And of course, she is incompetent 
enough to put all this in writing, in an e-mail.
    I would not want her advising any one of my----
    Mr. Johnson. The gentleman's time has expired.
    We will resume with a second round after recess for these 
votes. Do we have time for Mr. Cohen?
    All right. We will come back for Mr. Cohen and then begin a 
second round. If you all will stick with us, we have got two 
votes.
    [Recess.]
    Mr. Johnson. We will call us back to order, and we will 
start--or we will continue the first round of questioning with 
Mr. Cohen. Thank you.
    The distinguished gentleman from Tennessee?
    Mr. Cohen. Thank you, Mr. Chairman. And I apologize for my 
tardiness in returning.
    Mr. Melson, Mr. Delahunt was talking about Ms. Goodling and 
her tenure with the Department of Justice. Who took her place?
    Mr. Melson. You mean who took her place in the Attorney 
General's Office?
    Mr. Cohen. Yes, who is the patronage person now?
    Mr. Melson. I am sorry, who is the what?
    Mr. Cohen. Who is the person in charge of hiring? What was 
her job?
    Mr. Melson. She had many different jobs, as I understand 
it. I was not here----
    Mr. Cohen. What was the job that involved her in vetting 
people to work in the Justice Department?
    Mr. Melson. I am not sure. I was not here. I do not know 
where she was.
    All I know right now is that, in our office, in the U.S. 
attorney's office--I mean the Executive Office for U.S. 
Attorneys--we do not make any decisions based upon political 
factors for personnel.
    When I came over, she was not in the executive office. She 
was in the executive office for a period of time, but moved in 
other places in the department, where she was----
    Mr. Cohen. So, what you are saying is, when she was at the 
other places at Department of Justice is when she did all her 
special services.
    Mr. Melson. I am not--I do not know. She may have done some 
in the executive office. I have not--there is an OIG report 
that----
    Mr. Cohen. Do you know which law school she went to?
    Mr. Melson. I have no idea.
    Mr. Cohen. Who remembers? It is the religious school in 
Virginia that one of the people on television----
    Mr. Melson. In Virginia Beach.
    Mr. Cohen. Yes, you are getting close, then. Is it bigger 
than a--you know, smaller than a breadbox.
    Mr. Melson. A breadbox?
    Mr. Cohen. Yes, that is right. Regent. Does Regent ring a 
bell?
    Mr. Melson. It does.
    Mr. Cohen. It does. Do you know if the employment of 
attorneys from Regent has continued at the same rate it did 
when she was there? Or has it decreased? Or does it still 
exist?
    Mr. Melson. I have no information on that whatsoever.
    Mr. Cohen. No information, okay.
    Do you know about the--in your papers you talk about some 
of the exceptional cases and the projects you all have engaged 
in, which I agree have been good, including the projects in 
Tennessee on corruption. You are familiar with those cases in 
Tennessee?
    Mr. Melson. I am familiar with some of them. And you have 
some very good U.S. attorneys in Tennessee, in your----
    Mr. Cohen. In Memphis we had Mr. Kustoff, who did an 
outstanding job. And Mr. Laurenzi is filling in right now, and 
he is a fine prosecutor.
    Do you know if there have been any efforts in--in Memphis 
we went after politicians. And indeed, politicians had shown 
conduct that made them deserved of the attention that they 
received.
    But most of the politicians, although these were stings, 
there were some cases that were not stings. And you cannot have 
somebody taking a bribe without somebody offering it. And the 
people that generally offer the bribes have not been 
prosecuted.
    Is that true in other jurisdictions, where generally the 
politicians are the--which not that they should not be subject 
to prosecution, but that the other parties and the private 
folks who offer monies or inducements are not prosecuted?
    Mr. Melson. Well, we can get back to you with examples of 
whether they were or they were not. I have never done a study 
to determine that. But I am sure, if they were not part of a 
government cooperation, that they may have been prosecuted.
    Mr. Cohen. All right. Let me ask this.
    Ms. Williams, you are a public defender.
    Ms. Williams. Yes, sir.
    Mr. Cohen. You have seen the State and government prosecute 
drug crimes. Correct?
    Ms. Williams. Correct.
    Mr. Cohen. Marijuana, meth, crack, cocaine, et cetera?
    Ms. Williams. Yes, sir.
    Mr. Cohen. Do you think that, in your area, that the 
government prioritizes the drugs based on their harm to 
society?
    Ms. Williams. They do.
    Mr. Cohen. And so, they mostly go after----
    Ms. Williams. They go after all the drug offenses that they 
have jurisdiction over.
    However, the exception is going to be--and this may be in 
the process of changing--500 pounds or less of marijuana, port 
of entry cases. That is, marijuana, 500 pounds or less, that 
has been hidden in a vehicle coming through a port of entry, 
where the defendant does not possess a gun or does not have a 
prior conviction. Those cases, I understand, have either been 
prosecuted as misdemeanors, simple possessions of marijuana.
    Well, along with the felony, they are given the chance to 
go ahead and plead to the misdemeanor or have been handed off 
to the State for prosecution.
    Mr. Cohen. So, they do meth, and crack and cocaine are more 
prioritized.
    Ms. Williams. Yes. There is no exception.
    Mr. Cohen. Good.
    And Mr. Delonis, is that the same thing as you understand 
the U.S. attorneys' priorities are?
    Mr. Delonis. Pretty much so. And it has been very district-
by-district. Quantities in southern Florida are going to be 
larger in terms of what is going to be prosecuted, whereas what 
is a big case in Wisconsin is not a big case in Florida, if you 
are talking about simply quantities of drugs involved.
    And then you are going to have in different areas of the 
country different types of drugs are going to have varying 
kinds of levels of abuse. What is popular on one coast may not 
be as popular among the drug culture on the other coast, for 
instance.
    Mr. Cohen. Right. But marijuana is treated a little less 
than crack and cocaine? Is that accurate?
    Mr. Delonis. Yes.
    Mr. Cohen. Okay. Do we want to go on? Okay.
    A big problem in all inner cities----
    Mr. Johnson. We will do a second round, and we will start 
with you for the first 5 minutes.
    Mr. Cohen. Thank you. Thank you, Mr. Chairman.
    In a lot of inner cities--my city is no exception--gang 
crime is extremely serious. And I believe there are some grants 
that are offered by through the U.S. attorneys' offices for 
anti-gang prosecutions.
    Mr. Delonis, are you familiar with those?
    Mr. Melson, I am sorry.
    Mr. Melson. Yes. There are a number of grants that are 
given to cities and local law enforcement as part of our anti-
gang strategy.
    Mr. Cohen. How do you prioritize who gets the grants?
    Mr. Melson. It depends on which grant you are talking 
about. If you are looking at our Project Safe Neighborhood 
grants, they are done on a--have been done--on a formula basis, 
so that all districts will get some grant money to help them 
with the anti-gang money.
    There is the 10-city initiative in which extra resources 
were put into 10 cities. Those decisions were based upon the 
aggravated nature of their gang problems.
    Mr. Cohen. Do you know if Memphis is one of those 10 
cities?
    Mr. Melson. If you give me a minute, I can look it up right 
here.
    Mr. Cohen. Sure. I mean, I would hope we wouldn't be, but 
then I would hope we would be.
    I presume what you are saying is, it is based on the level 
of gang activities reported and gang crime, and it goes to 
where it is needed.
    Mr. Melson. Yes. In those 10, in those 10 cities. It may 
take me a little bit longer to find it. I have it with me. But 
if you want to ask another question, I can look for it while 
you are doing that.
    Okay. No, I have the list here. The 10 sites included Los 
Angeles, Tampa, Florida, Cleveland, Ohio, Dallas-Fort Worth, 
Milwaukee, eastern district of Pennsylvania, the 222 corridor, 
Oklahoma City, Rochester, Indianapolis and Raleigh-Durham.
    Mr. Cohen. How were they chosen? Because I would be--I do 
not want to say that my city is deserved of top 10 recognition, 
as we were in basketball for 39 minutes and 50-some seconds--
but I would have to think that we have got more of a gang 
problem than Raleigh-Durham.
    Mr. Melson. Well, I was not personally involved in that 
selection. But I believe there were applications made by cities 
who thought they should be included in the top 10. And they 
were classified by the nature of the problem, the amount of 
resources there, the types of crimes that were being committed, 
the types of gangs that were there, whether they are 
international, or so forth.
    Mr. Cohen. This may have just worked out that way, but if 
you look at what you read me, it is like a political decision. 
You have got West Coast, L.A. You come around to Dallas in the 
Southwest, you come up to Oklahoma. You hit Milwaukee in the 
Midwest, come over to Cleveland. You come over to Rochester on 
the East. You come down to Raleigh-Durham.
    And what are the other cities?
    Mr. Melson. We have eastern Pennsylvania.
    Mr. Cohen. Right.
    Mr. Melson. The corridor.
    Mr. Cohen. So, Raleigh--I mean, Rochester--eastern 
Pennsylvania. You get into the ACC there with Raleigh-Durham.
    It is almost like a political thing to hit someplace around 
everywhere on the map except the Pacific Northwest.
    Mr. Melson. I have no information that anything political 
whatsoever was used in the selection of these cities for that 
money.
    Mr. Cohen. Well, it sure looks like they were spread out, 
and there was some purpose in spreading them out, so that a 
little bit went here and a little bit went there. Because I 
would have to think that you have got a bigger gang problem in 
Memphis, in New York City, probably in Washington, D.C., and 
some other cities.
    Do you know where the biggest gang problems are, the 
biggest number of gangs? I mean, Los Angeles has got a whole 
bunch.
    Mr. Melson. I am sure they do.
    Mr. Cohen. And do you think New York might be right up 
there with them? Chicago?
    Mr. Melson. Yes.
    Mr. Cohen. St. Louis, East St. Louis?
    Mr. Melson. Right. And they may also have other resources 
or other grants, which went to the same type of activity. So, 
without looking at the entire picture and the entire 
application, to look at other resources that are available that 
the other cities that were chosen might not have, it is hard to 
tell whether or not those cities were ignored or whether they 
have resources to go after the gangs.
    Mr. Cohen. I do not have any further questions, Mr. 
Chairman. Thank you.
    Mr. Johnson. Thank you, Mr. Cohen.
    I have a couple.
    As you are well aware, Mr. Melson, prosecuting public 
corruption has been a high priority of the Justice Department. 
Do you support the U.S. Attorney Tom O'Brien's decision in 
March of 2008 to eliminate the public corruption and 
environmental crimes section in the Los Angeles office?
    Mr. Melson. He did not eliminate prosecutions or 
investigation of those cases. He redistributed the individuals 
from that unit to make other units--into other units, where 
more people could prosecute those types of crimes.
    For example, many of those individuals went into the major 
fraud unit, major fraud and crimes unit, which, it is important 
to note, has experience in all of those types of cases. So, 
what this actually did is, it put more settings at the table, 
as their spokesman noted, for purposes of prosecuting those 
cases.
    Mr. Johnson. So, I take it that you support that decision.
    Mr. Melson. That was his decision to make, and the 
discretion that he used to make his office more productive, 
more responsive to the needs.
    Mr. Johnson. And do you support it?
    Mr. Melson. There have been no cases--yes, I support it, 
because there have been no cases that have been affected by 
that transition----
    Mr. Johnson. What impact will that decision, you think, 
have on the Los Angeles U.S. attorney's office to prosecute, or 
to investigate and prosecute, public corruption cases?
    Mr. Melson. It will do nothing but enhance it.
    Mr. Johnson. All right.
    I want to ask you some questions about Leslie Hagan. Are 
you familiar with that case?
    Mr. Melson. I have no personal knowledge of it. And I 
understand the OIG and OPR have included that in their 
investigation. So, it is difficult for me to talk about an 
ongoing investigation at the department.
    Mr. Johnson. Well, you are aware that she is a former 
assistant U.S. attorney in the Western District of Michigan, 
who was appointed as a detailee in October 2005, to be a 
liaison between the department and the U.S. attorneys' 
committee on Native American issues?
    Mr. Melson. Yes. In fact, she still is an assistant U.S. 
attorney. She never left that job. She was simply detailed to 
the executive office.
    Mr. Johnson. Now, in her final evaluation at EOUSA, dated 
February 1, 2007, Ms. Hagan received the highest possible 
performance rating. Despite receiving the outstanding ratings 
on her job performance evaluation, she was removed from her 
position amid rumors of her sexual orientation.
    Is that your understanding of why she was removed?
    Mr. Melson. I have no personal knowledge as to why she--and 
she would not have been removed. Her detail would have been--
the detail was not extended. I do not believe that she was 
removed.
    Mr. Johnson. Do you know whether or not her sexual 
orientation had anything to do with----
    Mr. Melson. I do not know that, but I can guarantee you 
that no decision regarding personnel in the Executive Office 
for U.S. Attorneys will, under my watch, be based upon sexual 
orientation.
    Mr. Johnson. One month after Special Counsel Scott Bloch 
took office in February of 2004, he ordered the removal from 
the OSC Web site of all references to the agency's authority to 
hear complaints by Federal employees who alleged discrimination 
based on their sexual orientation.
    Does the department--does your department agree with that 
policy?
    Mr. Melson. I don't think I can answer that, because I am 
not familiar with the removal of that information from his Web 
site.
    Mr. Johnson. Well, do you think that it is only right that 
Federal employees with complaints of alleged discrimination 
based on sexual orientation should be heard by your agency? Is 
that something that is appropriate?
    Mr. Melson. Those are considerations and issues that EOUSA 
certainly will evaluate. But whether or not the department 
does, and whether or not it comes within the confines of the 
EEO process, I do not know.
    But all I can say is that there will not be any of that 
under my watch at EOUSA.
    Mr. Johnson. All right.
    And now, also, court security legislation enacted last year 
required your office to provide a report to Congress by early 
April on the safety of assistant U.S. attorneys. To-date, your 
office has not provided that report.
    Can you tell us why? And can you also tell us when do you 
expect to provide that report?
    Mr. Melson. If it has not been, I apologize. It was my 
understanding that we had provided that to you. But I will 
check on that and get back to you. And if it has not, we will 
get it to you.
    Mr. Johnson. All right.
    All right. At this point, my time has expired.
    Mr. Cohen, I will defer to you for a third round of 
questioning, 5 minutes.
    Mr. Cohen. Thank you, Mr. Chairman.
    I have always had a concern about prioritizing the funds of 
the Justice Department, and in every way in prosecutions. And 
we have had a drug war for many, many years. I have not seen 
where we have made much success in the drug war. And I do not 
know.
    Mr. Delonis, are you an attorney?
    Mr. Delonis. Yes.
    Mr. Cohen. You are? Were you a prosecutor?
    Mr. Delonis. I have been for 38----
    Mr. Cohen. Okay.
    Mr. Delonis [continuing]. Nearly 39 years.
    Mr. Cohen. All right. I was not sure. I just was not here 
for the introductions.
    What should we be doing? And can we ever successfully 
``win'' the drug war? Because I think it has been going on 
maybe since Nixon's time, maybe before. Maybe it goes back to 
Harry Anslinger, but at least since Nixon in 1970.
    And from what I can tell, we are not winning. What can we 
do to improve? Is it prioritizing? Is it more treatment? Is it 
more border patrols, more prosecutors? What is the answer?
    Mr. Delonis. I do not know that there is a simple answer. 
It is a complex social problem that deals with prosecution on 
one side, with demand on the other side, with dealing with 
offenders who are caught and rehabilitation to the extent that 
that may be possible, to dealing with it as a foreign relations 
problem, too, because the source of a lot of the drugs is from 
overseas.
    It is one of those problems that has a myriad number of 
aspects to it, that there is no simple solution. It is 
something that has got to be addressed in a multi-agency, 
multidisciplinary----
    Mr. Cohen. I get where you are coming from, but I think you 
know where I am coming from, and I think we both agree the same 
thing. It is complex, but there is not enough out there. As 
complex as you make it, as interdisciplinary as you make it, we 
are not making a dent.
    Mr. Delonis. Well, you can look at it two ways. You can say 
we are not making a dent. And then you could say, if we had not 
been doing what we are doing, where would we be today? How much 
worse off would we be, had we not put the effort into it that 
we have?
    Mr. Cohen. Is it possible that the sentences were too 
great, and the judicial--the sentencing system we have got, 
where people have to serve a great percentage of their time, 
and maybe the sentences are too long. If the sentence is--I 
mean, putting somebody away for 15 years as distinguished from 
7 years is still a deterrent, a major deterrent? They come out 
after 7 years, maybe. And you can put a different round of 
people.
    You get up with the same number of people in jail. But if 
you can put twice as many people in for 7 years, as the same--
half the number for 15 years, you might have a better chance at 
kind of taking the people off the streets?
    Mr. Delonis. I don't know that that is necessarily true. I 
think those that get the longer sentences, by and large, are 
deserving of those sentences. And----
    Mr. Cohen. Ms. Williams, what do you think about that? Do 
you think we could--you know, because you take somebody that 
deserves it out of the system. Doesn't somebody else, just like 
a shark's tooth, come up and take that person's place?
    Ms. Williams. Unless you have arrested the head of the 
beast, then yes, exactly. The people that we represent, 
especially in Arizona, who tend to be what we call the mules--
either mechanized or walking, bringing the drugs across the 
border--they do not have information.
    They are not running the organization. They are poor people 
who are doing this just to make money, and then you throw them 
in jail for a mandatory minimum period of time. And there are 
insufficient resources within now the Bureau of Prisons to go 
ahead and help these people.
    There is a statute that allows for shock treatment, which 
is basically a boot camp for certain offenders. Bureau of 
Prisons does not have the money to fund that anymore, and it 
was a highly successful program.
    Mr. Cohen. Would it be better to spend money on the--what 
is the typical person that has got a great deal of crack or 
marijuana, whatever? Is it a 10-, 15-year sentence? I guess it 
depends on the different factors, I know.
    Ms. Williams. Lots of different factors, depending on the 
amount and depending on the person's criminal history. Many of 
the people we see can qualify for safety valve, and that is to 
get below the mandatory minimum if they qualify.
    But sometimes, if you have somebody who just served 90 days 
in jail for a misdemeanor, they are not going to qualify for 
safety valve. And they may have the mandatory minimum amount of 
crack or heroine, or whatever, and now they are stuck with 10 
years, even though they are low person on the totem pole.
    Mr. Cohen. Do you think that Congress should change the 
sentencing laws to give judges more flexibility in how they use 
our resources, our jail resources, and who they put away and 
for how long?
    Ms. Williams. Absolutely.
    I think also it would be worthwhile to go ahead and provide 
funding with probation and pretrial to start doing drug court. 
It is a program that in the State systems has shown to be very 
effective. And not many Federal courts have it, but it shows a 
great deal of promise.
    Mr. Cohen. Mr. Delonis or Mr. Melson, do you agree or 
disagree that we should change our sentencing laws, 
particularly in the area of either drug offenses, possession or 
smaller drug cases, or drug cases, marijuana, to give the judge 
more discretion and/or have drug courts?
    Mr. Delonis. I think that we have seen with the latest 
Supreme Court decision on the guidelines, that the judiciary 
has stepped forward and given more discretion to the judges.
    Now, what we do not want to do is go back to the unbridled 
discretion of the old days, when you had wide disparities of 
sentencing. When I am talking about the old days, I am talking 
a quarter-century ago, where an offense of a certain kind in 
one jurisdiction will draw a far more serious sentence from a 
different judge in a different jurisdiction.
    So, we need to have some fairness and uniformity, which the 
guidelines give us. And I think we have gotten a----
    Mr. Cohen. So, are you saying that the judicial changes, 
the rulings from the courts, were appropriate?
    Mr. Delonis. Well, first, the Supreme Court has given, now, 
more discretion in the trial judges when it comes----
    Mr. Cohen. So, before the Supreme Court acted, the law was 
not a good law.
    Mr. Delonis. Oh, I am not going to say whether it was good 
or not. I am just saying----
    Mr. Cohen. Well, it was improved upon. It is better. It is 
like Tide, a new and improved law.
    Mr. Delonis. Pardon me?
    Mr. Cohen. It is a new and improved law now.
    Mr. Delonis. Call it what you will. What we have we have 
got to deal with. To me it looks like a better situation, 
because the courts do now have a little more discretion than 
they had before.
    Mr. Cohen. Professor Turley, do you think we can make it 
better?
    Mr. Turley. Oh, I think we definitely can make it better. I 
think that we have had great improvement as we have moved away 
from the mandatory, rigid rules of the guidelines. And I think 
we can improve it more by giving discretion.
    You know, I testified a long time ago with a judge. And I 
remember his statement always stuck with me.
    He said, you know, I spend my--Federal judges in this 
country are very accomplished people. And we spend our whole 
lives going to good law schools, doing well, getting a job, 
making partner, being successful. And then, when we have all 
that experience, you make us Federal judges, and immediately 
tell us, don't apply any of that in sentencing.
    And I think he is very much correct in that. Most Federal 
judges I have seen--and this has nothing to do with who 
appointed them, conservative and liberal judges--tend to take 
sentencing very seriously. And I think that you can give them 
more discretion, and they do a very good job.
    Mr. Cohen. And if I can have one.
    Mr. Melson, how do you weigh in on this?
    Mr. Melson. Well, I can tell you that when they had the 
sentencing guidelines and minimum mandatory sentences, we were 
seeing many more cases that we could go up the chain to the 
head of the beast, because those sentences encourage defendants 
to cooperate with us. And we were able to get cooperation out 
of a tremendous number of people.
    Now that the defendants can litigate their sentences with 
the judge in a sentencing, and not be bound by the sentencing 
guidelines, I think we are going to see fewer people 
cooperating with us, making it harder for us to go up the chain 
to those who really need to go away for a long, long, long 
time.
    Mr. Cohen. Mr. Turley, can you tell me why you smile?
    Mr. Turley. Well, it is only because there is a difference 
between a criminal defense attorney and a prosecutor that I am 
sure Ms. Williams would agree on.
    One of the reasons why sentencing was so neat under the 
earlier system is, as a defense attorney you would plead your 
person out, because there was not much room for you to do 
anything else. And so, yes, it was great for prosecutors, 
because you could hit some guy with multiple decades unless 
they cooperated. And that is always good for producing 
cooperation and pleas.
    But it often produced great injustices. And I think we have 
a better system by relying on our judges. And I think the 
prosecutors have more than enough leverage to get cooperation.
    Ms. Sanchez. [Presiding.] Professor Turley, if the 
gentleman would yield.
    Mr. Cohen. I yield to the----
    Ms. Sanchez. It is interesting that you struck on something 
that is very near and dear to my heart, which is justice, 
because I do understand the need to try to get people to inform 
on people higher up the chain.
    But when you do not get people who are informing, and they 
face a very draconian, mandatory minimum, where is the justice 
and the sentence fitting the crime, which in many cases is very 
basic, foot soldier, mule type work, not masterminds of vast 
criminal networks?
    And so, I think we also have to be mindful that guidelines 
are great, but mandatory minimums do not always necessarily 
mean that the ideal of justice is being served.
    Mr. Turley. And Madam Chair, one of the things that I would 
love to see this Committee look into is a very serious problem 
involving the use of what are called snitches and cooperation 
deals with prosecutors. As you alluded to, it is very, very 
common now for prosecutors to tell first offenders, you know, 
go and get me someone else. If you do not have information, 
then bring some other guy in here, and I will deal with you.
    And ``Frontline'' did a wonderful program on this about 10 
years ago. There have been other studies. People have been 
killed trying to do sting operations. There was a father once 
who was injured once, because he was trying to do a sting to 
get someone to produce a deal for his son.
    And it had just gotten way out of control. And it would be 
worthy of this Committee to look at it. It is very dangerous, 
and it also shows how draconian these sentences are for first 
offenders, that they would do anything they can to try to find 
someone that they can snitch on.
    Ms. Sanchez. Thank you. The time of the gentleman has 
expired.
    I am going to recognize myself for 5 minutes for questions, 
and this will be the last set of questions. So, I appreciate 
everybody's patience in staying here during the votes, et 
cetera.
    Mr. Melson, according to the department's Web site, one of 
EOUSA's major functions is to evaluate the performance of the 
offices of the United States attorneys, making appropriate 
reports and taking corrective action when necessary.
    During the U.S. attorney firings controversy, we learned 
that Kyle Sampson, the now-resigned chief of staff to the 
attorney general, maintained and revised various lists of U.S. 
attorneys to be fired or retained. He received input from 
various sources, including several White House officials.
    In the wake of the controversy, have evaluations of the 
U.S. attorneys changed? Has a process for evaluating them 
changed?
    Mr. Melson. The process for evaluating the U.S. attorneys' 
offices, which we think is a very valuable and significant 
process, has remained the same. It was not defective or broken 
during the time of the U.S. attorneys' firings.
    I do not know how the reports were used, but the evaluation 
process had integrity then. It maintains integrity now.
    In fact, I participate----
    Ms. Sanchez. With all due respect, in our investigation 
into the U.S. attorneys' firings, there have been a number of 
pieces of evidence, which lead us to suspect that many of those 
firings were done for purely political reasons, not having to 
do with the qualifications or the ability of these U.S. 
attorneys.
    In fact, some of them received outstanding and rave 
reviews, and yet their names appeared on the list, because they 
had displeased somebody with their failure to pursue certain 
cases that were being thrust upon them, where they saw no 
evidence, or because--and other political considerations, as 
well.
    So, I don't know that I agree 100 percent with your 
assessment that the process of evaluating them has integrity.
    Mr. Melson. Well, may I respond to that?
    Ms. Sanchez. Absolutely.
    Mr. Melson. Those conclusions that you found in your 
investigations would not have been drawn from the EARS 
evaluation. The EARS evaluators are 100 percent career 
prosecutors and support staff who go into these offices. They 
look at the programs. They evaluate how the programs are 
running. They do not make judgment calls. They do not make 
political calls in there.
    So, I do not think you will find in any of the EARS 
evaluations, the evaluations from our staff, that have anything 
that will support your allegations or suppositions with respect 
to the political firings.
    And I am not saying they were or they were not. All I am 
saying is----
    Ms. Sanchez. I understand. Let me rephrase the question.
    The reports that are prepared as to a U.S. attorney's 
qualifications and their work product, do you think that those 
should be disregarded when it comes to hiring and firing U.S. 
attorneys? If their performances are outstanding, and these are 
U.S. attorneys that are teaching seminars to other U.S. 
attorneys on how to prosecute certain cases, I mean, do you 
feel that it is, you know, that those reports can be 
disregarded or completely ignored?
    Mr. Melson. No, and they have not been disregarded when 
there is a basis in the evaluations for a removal for cause. 
And there have been some U.S. attorneys over the history, as I 
think one of the other Congress members pointed out, U.S. 
attorneys that have been removed for cause.
    And our reports, when they raise serious allegations of 
performance with respect to a U.S. attorney, those may be acted 
upon by the deputy attorney general. Our reports merely reflect 
their performance in the office as the head prosecutor for that 
district.
    Ms. Sanchez. Okay. Assuming that the reports are very 
favorable, and there is not a desire to remove somebody for 
cause, but simply at the whim--and somebody is performing in an 
outstanding capacity and desires to stay on in the U.S. 
attorney's office--doesn't it really render the evaluation 
useless, if these people can just summarily be dismissed for 
reasons other than cause?
    Mr. Melson. That consequence certainly is not one of the 
purposes of the evaluation and review staff and the reports 
that we do.
    Ms. Sanchez. I have a couple of lines of questioning. Just 
out of curiosity, and one of the issues that I mentioned in my 
opening statement was the dissolution of the public corruption 
section in the Los Angeles U.S. attorney's office.
    In justifying the dissolution of that section, a spokesman 
said that he was not aware of any other U.S. attorney's office 
in the country that had an entire section of lawyers 
specializing in public corruption cases. Is that a correct 
statement?
    Mr. Melson. I have not looked at all the U.S. attorneys' 
offices. There very well could be large districts--maybe one of 
the New York districts or Chicago's--that have a public 
corruption unit. But that is really beside the point.
    Mr. O'Brien merely reorganized his office to become more 
efficient and to produce better results.
    The name of a unit that a particular prosecutor is in is of 
little consequence. None of the cases that were pending at the 
time that he made the reorganization have been or are being 
affected by the reorganization.
    In fact, the public corruption cases are now being pursued 
by a much larger group of very experienced career prosecutors, 
who hopefully will be able to actually pay more time and 
attention to those very serious and significant cases.
    Ms. Sanchez. Statistically speaking, have the same number 
of cases been brought, now that that unit has been disbanded 
and farmed out among different other units?
    Mr. Melson. It is a little bit too early to say that, 
because these cases take a long time. But since the 
reorganization, several long-term, pending cases have popped 
out of the grand jury, have been indicted. So, to that extent, 
we have a preliminary indication that his reorganization was a 
dramatic success.
    Ms. Sanchez. If over time, statistically speaking, the 
opposite comes to pass, in that the number of cases of public 
corruption actually drop significantly, would they consider 
reinstituting the special unit?
    Mr. Melson. I think Mr. O'Brien is dedicated 100 percent to 
public corruption cases. And if it looks like it is necessary 
to reorganize the office to maintain the aggressive prosecution 
of public corruption cases, he will do that.
    Ms. Sanchez. Thank you. A last question for Mr. Delonis.
    Anecdotal accounts from U.S. attorneys' offices along the 
southwest border indicate that these offices are having a 
difficult time recruiting and retaining qualified assistant 
U.S. attorneys, because they are primarily working on 
misdemeanor border crossing prosecutions.
    To your knowledge, are those accounts correct?
    Mr. Delonis. I do not have any personal knowledge with 
respect to retention and recruiting in those particular 
jurisdictions. I would guess the natural inclination of an 
applicant would be that, on joining a U.S. attorney's office, 
that they would aspire to prosecute large, significant felony 
cases.
    But that is generally something you work your way up to. 
You do not start at that level.
    Ms. Sanchez. I understand. But if an emphasis is being 
placed on less significant cases that are being used to drive 
up statistics in a particular area, and people are--they are 
having a hard time recruiting or retaining people, because they 
are not doing work that they aspire to do, or that is 
meaningful for them, would that be a problem?
    Mr. Delonis. Like I said, I don't really know, because 
nobody has discussed with me that it is a problem in their 
particular office.
    I would just say that, from experience, you start with--it 
was a long time ago when I started--but my first assignments 
included prosecuting moonshine cases and stolen cars. And that 
is how I started my career, and I worked my way up to things 
that were much more complicated.
    Now----
    Ms. Sanchez. Ms. Williams, can I ask the same question of 
you?
    Ms. Williams. I know that in the Tucson office last 
September, there were five assistant U.S. attorneys who 
resigned or were reassigned to different offices. One became an 
immigration judge. And that part of the reason for that was the 
frustration of the high caseloads and the morale within the 
office, because of the high caseloads.
    When I started with the public defender's office 14 years 
ago, I knew that the Tucson U.S. attorney's office was a 
popular spot for assistants to transfer maybe for a short time, 
2 years, to go ahead and prosecute cases, especially if the 
prosecutors were from colder places. Now, they are not getting 
the people volunteering to do that anymore, because of the high 
caseloads.
    Ms. Sanchez. Right. I appreciate your answer.
    My time has expired, so I would like to thank all the 
witnesses for their testimony today.
    Without objection, Members will have 5 legislative days to 
submit any additional written questions, which we will forward 
to the witnesses and ask that you answer as promptly as you 
can, so that those can also--those answers should also be made 
a part of the record.
    And without objection, the record will remain open for 5 
legislative days for the submission of any additional 
materials.
    Again, I want to thank all of the panelists for their 
testimony and for your patience, especially in the face of 
votes across the street.
    And with that, this hearing of the Subcommittee on 
Commercial and Administrative Law is adjourned.
    [Whereupon, at 5:11 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   Response to Post-Hearing Questions from Kenneth E. Melson, Esq., 
Director, Executive Office for United States Attorneys, U.S. Department 
                       of Justice, Washington, DC
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

  Response to Post-Hearing Questions from Heather E. Williams, Esq., 
First Assistant, Federal Public Defender, District of Arizona, Tucson, 
                                   AZ
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

     Post-Hearing Questions submitted to Richard L. Delonis, Esq., 
 President, National Association of Assistant United States Attorneys, 
                             Lake Ridge, VA
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



--------
*Note: The Subcommittee on Commercial and Administrative Law did not 
receive a response to these questions from the witness prior to the 
printing of this hearing.

                                <F-dash>

    Response to Post-Hearing Questions from Jonathan Turley, Esq., 
            The George Washington Law School, Washington, DC
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
